D
R                                                 EMPLOYEE BENEFITS SECURITY
A
F                                                 ADMINISTRATION
T




    Office of Inspector General—Office of Audit




                                                  CHANGES ARE STILL NEEDED IN THE ERISA

                                                  AUDIT PROCESS TO INCREASE PROTECTIONS 

                                                  FOR EMPLOYEE BENEFIT PLAN PARTICIPANTS 





                                                                      Date Issued:   September 28, 2012
                                                                   Report Number:      09-12-002-12-121
U.S. Department of Labor                                        September 2012
Office of Inspector General
Office of Audit                                                 Changes Are Still Needed in the ERISA Audit
                                                                Process to Increase Protections for Employee
BRIEFLY…                                                        Benefit Plan Participants

Highlights of Report Number 09-12-002-12-121, issued
                                                                WHAT OIG FOUND
                                                                Despite EBSA’s significant efforts to improve oversight
to the Assistant Secretary for Employee Benefits
                                                                and audit quality, protections and assurances have
Security.
                                                                decreased over time for participants and beneficiaries.
                                                                EBSA’s improvement efforts have included working with
WHY READ THE REPORT                                             the AICPA to establish an audit quality center that
The Employee Retirement Income Security Act of 1974             provides guidance and education, redesigning its
(ERISA) is the primary federal law governing private            targeting methods to identify and correct substandard
sector employee benefit plans. ERISA requires that most         plan audits, and providing training and outreach activities
large employee benefit plans use an independent                 for plan auditors. However, these efforts have been
qualified public accountant (IQPA) to audit the plan's          offset by plan administrators’ increased use of limited
financial statements in accordance with Generally               scope audits and a significant growth in asset value of
Accepted Auditing Standards. For plan year 2010, the            plans subjected to limited scope audits. The percentage
most recent complete year available, about 84,000 plans         of plans electing limited scope audits has grown from
filed audited financial statements with EBSA,                   about 46 percent in 1987 to approximately 70 percent in
representing 93 million participants and $5.7 trillion in       2010. The reported value of assets excluded from plan
assets.                                                         audits has similarly grown from about $520 billion (43
                                                                percent) in 1989 to $3.3 trillion (58 percent) in 2010.
The Department of Labor’s (DOL) Employee Benefits
Security Administration (EBSA) has the responsibility to        While the use of limited scope audits is a major obstacle
ensure these audits meet ERISA requirements. One                in providing audit protections for plan participants, EBSA
problem is that ERISA allows limited scope audits, which        could have done more within the existing law to improve
means the auditor does not need to audit plan asset             audit quality. Specifically, EBSA could have: 1) used
information if the assets are held and certified by certain     existing authority to clarify and strengthen limited scope
financial institutions. Since the auditor does not test         audit regulations and formally evaluated
asset information certified by the financial institution, the   recommendations by the ERISA Advisory Council for
auditor disclaims an opinion on the plan’s financial            improving limited scope audits; 2) made better use of
statements, providing no assurances to participants or          available enforcement tools over IQPAs, even though
beneficiaries on the reliability of the plan’s financial        EBSA lacked the legal authority to prevent IQPAs from
statements.                                                     conducting substandard audits; 3) improved procedures
                                                                in its reviews of IQPAs to ensure that audits met
As far back as 1984, reviews by DOL’s Office of                 professional standards; and 4) completed a statistically
Inspector General (OIG), the U.S. Government                    valid reassessment of overall employee benefit plan
Accountability Office (GAO), and EBSA have shown that           audit quality since it had not completed one since 2004,
ERISA audit requirements need changing. In fact, OIG            and as a result cannot statistically demonstrate if audit
and GAO have recommended EBSA seek repeal of                    quality has improved since that time.
limited scope audits, obtain authority over plan auditors,
and improve oversight of employee benefit plan audits.          WHAT OIG RECOMMENDED
To address these issues, EBSA established an Office of          We recommended the Assistant Secretary for Employee
Chief Accountant (OCA) in 1989 to monitor and improve           Benefits Security continue to seek repeal of the limited
the quality of employee benefit plan audits and to identify     scope audit exemption and obtain authority over plan
and correct substandard audits.                                 auditors. We also recommended that in the interim,
                                                                EBSA: (1) use existing authority to clarify and strengthen
WHY OIG CONDUCTED THE AUDIT                                     limited scope audit regulations and evaluate the ERISA
We conducted this audit to determine if EBSA’s                  Council recommendations, (2) make better use of
oversight of ERISA audits had improved audit quality            available enforcement tools over IQPAs, (3) improve
and increased participant protections.                          procedures in audit quality reviews, and (4) perform a
                                                                reassessment of audit quality.
READ THE FULL REPORT
To view the report, including the scope, methodology,           EBSA generally agreed with our recommendations.
and full agency response, go to:                                EBSA also agreed to further examine its authority and
                                                                guidance under limited scope audits, additional
http://www.oig.dol.gov/public/reports/oa/2012/09-12-002-        enforcement tools over IQPAs, and the merits of
12-121.pdf.                                                     conducting another reassessment of audit quality.
               U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                                 EBSA Audit Quality
                                        Report No. 09-12-002-12-121
                                                          U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
 

RESULTS IN BRIEF ....................................................................................................... 2
 

Objective — Has EBSA’s Oversight of ERISA Audits Improved Audit Quality and 

Increased Participant Protections? ............................................................................. 5
 
      EBSA Needs to Take Further Actions to Mitigate The Decrease in Protections For
      Employee Benefit Plan Participants 
         Finding 1 — EBSA needs to take additional actions to increase protections for 

                     Employee Benefit Plan Participants ................................................. 5
 

RECOMMENDATIONS................................................................................................. 16
 

Appendices 
         Appendix A Background ..................................................................................... 21
 
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 23
 
         Appendix C Acronyms and Abbreviations .......................................................... 25
 
         Appendix D EBSA Response to Draft Report ..................................................... 27
 
         Appendix E Acknowledgements ......................................................................... 31
 




                                                                                                 EBSA Audit Quality
                                                                                        Report No. 09-12-002-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                               EBSA Audit Quality
                                      Report No. 09-12-002-12-121
                                          U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210


September 28, 2012


                        Assistant Inspector General’s Report


Phyllis C. Borzi
Assistant Secretary
 for Employee Benefits Security
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The Employee Retirement Income Security Act of 1974 (ERISA) is the primary federal
law governing the investment of assets in private sector employee benefit plans. ERISA
requires most large employee benefit plans to obtain annual audits of their financial
statements by independent qualified public accountants (IQPA). The Department of
Labor’s (DOL) Employee Benefits Security Administration (EBSA) has the responsibility
to ensure these audits meet ERISA requirements to help protect participant and
beneficiary benefits. For plan year 2010, the most recent complete year available, about
84,000 plans filed audited financial statements with EBSA, representing 93 million
participants and $5.7 trillion in assets.

In 1990, EBSA’s Office of Chief Accountant (OCA) started a program to improve the
quality of ERISA audits through oversight, education, and outreach. In that regard, we
conducted an audit to answer the following question:

      Has EBSA’s oversight of ERISA audits improved audit quality and
      increased participant protections?

SCOPE AND METHODOLOGY

We reviewed professional standards, applicable regulations, and EBSA policies and
procedures. We also reviewed a sample of OCA examinations of IQPA audits from
FYs 2008 through 2011. We interviewed officials from EBSA, the American Institute of
Certified Public Accountants (AICPA), the Pension Benefit Guarantee Corporation
(PBGC), and met with employee benefit plan experts as well as a member of the ERISA
Advisory Council to gain an understanding of the employee benefit plan audit process,
EBSA oversight, and plan audit quality standards.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence

                                                                               EBSA Audit Quality
                                            1                         Report No. 09-12-002-12-121
                                                         U.S. Department of Labor – Office of Inspector General


obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. We have detailed our objective, scope, methodology, and criteria in
Appendix B.

RESULTS IN BRIEF

Despite EBSA’s significant efforts to improve ERISA audit quality, protections have
decreased over time for plan participants and beneficiaries. EBSA’s improvement efforts
have included working with the AICPA to establish an audit quality center that provides
guidance and education, redesigning its targeting methods to identify and correct
substandard plan audits, and providing training and outreach activities for plan auditors.
However, these efforts have been offset by increased limited scope audits and
continuing lack of EBSA’s legal authority. We also concluded that EBSA could make
improvements in its audit quality reviews.

We did not determine whether audit quality has improved because EBSA has not
performed a reassessment of overall employee benefit plan audit quality since 2004.
Instead, we are recommending EBSA assess audit quality to measure its program
effectiveness.

Limited Scope Audits

ERISA allows the use of limited scope audits, meaning plan administrators can instruct
plan auditors to not audit plan asset information certified by certain financial institutions.
This limits the scope of plan audits, resulting in less audit testing and prevents plan
auditors from providing assurances to plan participants and beneficiaries regarding their
plan’s financial statements. The limited scope audit exemption presents challenges for
plan administrators to report plan investments correctly at current value1 in accordance
with ERISA requirements since IQPAs do not audit the values. Without an audit, plan
administrators do not always make the effort to ensure they present the plan's assets at
current value as required by ERISA.

Since 1984, we have recommended EBSA seek legislative repeal of limited scope
audits. EBSA has supported this recommendation and made several proposals to
Congress to repeal the limited scope audit provision. Congress has not acted on any of
these proposals and has not repealed the provision. EBSA has not formally sought
repeal since 1997.

The lack of protections provided by limited scope audits have extended to more
participants and more plan assets in recent years. The percentage of plans using limited
scope audits has grown from about 46 percent in 1987 to about 70 percent in 2010. The

1
  Section 3(26) of ERISA states, "The term ‘current value’ means fair market value where available and otherwise the
fair value as determined in good faith by a trustee or a named fiduciary (as defined in section 402(a) (2)) pursuant to
the terms of the plan and in accordance with regulations of the Secretary, assuming an orderly liquidation at the time
of such determination."


                                                                                              EBSA Audit Quality
                                                           2                         Report No. 09-12-002-12-121
                                            U.S. Department of Labor – Office of Inspector General


reported value of assets excluded from plan audits has similarly grown from about
$520 billion (43 percent) in 1987 to $3.3 trillion (58 percent) in 2010, the most current
information at the time we began our audit.

While the use of limited scope audits is a major obstacle in providing audit protections
for participants and beneficiaries, EBSA has not taken all appropriate actions within the
existing law. Specifically, EBSA has not ensured that, in limited scope audits, plan
administrators present the current value for plan investments, as ERISA requires. In
addition, while the ERISA Advisory Council studied limited scope audit issues and made
recommendations to clarify and amend limited scope regulations, EBSA has not
formally evaluated these recommendations, citing other priorities for its regulatory
process.

Lack of Legal Authority Limits Monitoring and Enforcement

EBSA continues to lack the legal authority to oversee IQPAs. Without this authority,
EBSA can only refer IQPAs to the AICPA and/or State Boards of Accountancy. Since
1984, we have recommended that EBSA seek a congressional change to ERISA to
allow EBSA to oversee IQPAs directly. With this authority, EBSA could better prevent
IQPAs that EBSA finds performing audits that do not meet professional standards from
continuing to perform employee benefit plan audits. EBSA has agreed with this
recommendation and made several proposals to Congress to obtain this authority.
Congress has not acted on these proposals to provide EBSA the requested authority,
and EBSA has not sought this additional authority since 1997.

If EBSA obtained authority to regulate and enforce ERISA standards on IQPAs, it could
save significant resources directed at targeting and monitoring deficient audits.
Historically, the highest risk for deficient audits was in audits performed by less
experienced firms: generally those that perform less than 25 employee benefit audits
per year. This group of firms historically produced more deficient audits than firms
performing more plan audits per year. For FYs 2010 to 2011, EBSA spent 70 percent of
its reviews on these firms; yet, these firms audited less than 25 percent of the
$5.7 trillion in plan assets. Additionally, sometimes EBSA must monitor the same firms
year after year. If EBSA could require these firms to obtain better training before
performing plan audits and enforce sanctions if these firms did not meet professional
standards, EBSA could spend less time on targeting and monitoring these
inexperienced or less trained firms.

Despite EBSA’s lack of legal authority, there are monitoring tools it could have been
using to help improve audit quality. For example, EBSA could have published the
names of IQPAs that repeatedly performed substandard work, deterring them from
continuing to perform poorly.




                                                                              EBSA Audit Quality
                                             3                       Report No. 09-12-002-12-121
                                           U.S. Department of Labor – Office of Inspector General


EBSA’s Review Procedures for IQPAs

EBSA’s reviews did not always sufficiently document that IQPA audits met professional
standards. EBSA did not specifically require reviewers to document procedures in each
of the office’s review guide or document why certain procedures were not performed.
Further, even when the reviewers performed all procedures, the review guide did not
cover all audit requirements. We found for seven percent of sampled cases, EBSA
reviews did not adequately document applicable review procedures and did not
document why certain procedures were not performed. We also found, EBSA’s review
guide did not specifically address audits in which the plan custodian certified some, but
not all, plan assets in limited scope audits. As a result, EBSA accepted audit work that
may have contained deficiencies that could have adversely affected participant and
beneficiaries’ retirement benefits.

EBSA’s Reassessment of Audit Quality

EBSA has not performed a reassessment of overall employee benefit plan audit quality
since 2004. In that study, as well as in one performed in 1997, EBSA conducted
statistically valid reviews of employee benefit plans as a means of measuring whether
overall audit quality had improved. These reviews provided EBSA management
important information on the effectiveness of EBSA’s oversight of IQPAs and provided
data on where audit quality problems were occurring. Since EBSA has not performed
such a review since 2004, it cannot statistically demonstrate if audit quality improved
since that time.

RECOMMENDATIONS

We recommended the Assistant Secretary for Employee Benefits Security continue to
seek repeal of the limited scope audit exemption and obtain authority over plan auditors.
We also recommended that in the interim, EBSA: (1) use existing authority to clarify and
strengthen limited scope audit regulations and evaluate the ERISA Council
recommendations, (2) make better use of available enforcement tools over IQPAs, (3)
improve procedures in audit quality reviews, and (4) perform a reassessment of audit
quality.

EBSA RESPONSE

In response, EBSA generally agreed with the findings and recommendations in the
report. EBSA stated that it has made consistent and comprehensive efforts to improve
audit quality and those efforts have evolved over time and been adapted to take into
account the size of the filing universe and the resources available. EBSA also stated it
had long advocated statutory reform because several statutory provisions of ERISA limit
the Secretary's ability to combat audit quality deficiencies.

Specifically, EBSA agreed with the recommendations to continue to seek repeal of the
limited scope audit exemption and obtain authority over plan auditors. EBSA stated it


                                                                             EBSA Audit Quality
                                            4                       Report No. 09-12-002-12-121
                                           U.S. Department of Labor – Office of Inspector General


did not have the authority by regulation to eliminate limited scope audits but would
examine what authority it did have to clarify and strengthen the limited scope audit
regulations. EBSA also stated it would examine related guidance for plan administrators
and auditors in the areas described in the audit report and in the recommendations of
the ERISA Advisory Council. EBSA also agreed to evaluate OIG's suggestion that it
advise plan administrators of the potential for fiduciary breaches from selection of QPAs
known to produce deficient audits and to consider the other suggestions in the report
regarding enforcement tools. Finally, EBSA stated it would evaluate the merits of
another statistically-based reassessment of audit quality as it developed future work
plans.

The Assistant Secretary’s entire response is contained in Appendix D.

OIG Conclusion

We concur with EBSA’s proposed corrective actions but will wait until definitive actions
are determined and implemented to evaluate actual corrective actions taken and to
close recommendations.

RESULTS AND FINDINGS

Objective — Has EBSA’s Oversight of ERISA Audits Improved Audit Quality and
             Increased Participant Protections?

      EBSA Needs to Take Further Actions to Mitigate The Decrease in Protections For
      Employee Benefit Plan Participants

Finding 1 — EBSA Needs to Take Additional Actions to Increase Protections for
            Employee Benefit Plan Participants

Despite EBSA’s efforts to improve ERISA audit quality, protections and assurances
have decreased over time for plan participants and beneficiaries. EBSA has taken
significant actions including working with the AICPA to establish an audit quality center
that provides guidance and education, redesigning its targeting methods to identify and
correct substandard plan audits, and providing training and outreach activities for plan
auditors. However, the increased use of limited scope audits and continuing lack of
legal authority that limits EBSA’s enforcement have offset these efforts to improve
participant protections. We also concluded that EBSA’s audit quality review procedures
were incomplete.

We did not determine whether audit quality has improved because EBSA had not
conducted an overall assessment of audit quality since 2004. Instead, we are
recommending EBSA assess audit quality to measure its program effectiveness.




                                                                             EBSA Audit Quality
                                            5                       Report No. 09-12-002-12-121
                                            U.S. Department of Labor – Office of Inspector General


Limited Scope Audits Continue to Provide Inadequate Protections for Plan
Participants and Beneficiaries

ERISA section 103(a)(3)(c) allows the plan administrator to instruct the auditor not to
perform any auditing procedures with respect to investment information prepared and
certified by a bank or similar institution or by an insurance carrier who acts as trustee or
custodian and is regulated, supervised, and subject to periodic examination by a State
or Federal agency. The election is available, however, only if the trustee or custodian
certifies both the accuracy and completeness of the information submitted.

When the plan administrator elects a limited scope audit, the IQPA has no responsibility
under Generally Accepted Auditing Standards (GAAS) to test the accuracy or
completeness of the investment information certified, obtain an understanding of
internal control maintained by the certifying institution over investments held, or assess
control risk associated with assets held and transactions executed by the institution.
The legislative intent for the rule was to exempt institutions that were already regulated
and examined by a Federal or State agency from duplicative audits. However, it has
been shown that, since 1974, supervision and examination by Federal and State
agencies have decreased significantly, the audit effort would not be duplicative of audits
by federal or state oversight agencies, and that these institutions are subject to abuse
and mismanagement as well.

Repeal of the Limited Scope Audit Exemption - Since 1984, we have recommended
repeal of the limited scope audit provision because we believe that this provision no
longer serves the purpose intended and increases risk of loss to plan participants and
beneficiaries. This is because: (a) there is minimal audit coverage to be duplicated; (b)
assets held by banks and similar institutions have been subject to abuse and
mismanagement and, therefore, need to be included in plan audits; (c) limited scope
audits do not include an opinion from the auditor regarding the reliability of the financial
statements and are of limited use to DOL, plan participants and beneficiaries; and (d) a
very significant amount of plan assets are not audited.

According to EBSA, banks and other financial institutions have also expressed concern
about the burden of having numerous plan auditors performing audit work on them.
However, if the limited scope audit provision was eliminated, financial institutions could
use a report many currently have, Report on Controls at a Service Organization
Relevant to User Entities’ Internal Control over Financial Reporting (SOC-1 reports),
that is prepared in accordance with Statement on Standards for Attestation
Engagements No. 16, Reporting on Controls at a Service Organization. Plan auditors
can and do rely on these reports in lieu of having to visit financial institutions to perform
audit work thereby eliminating the need for every plan auditor to visit every financial
institution to perform audit work.

EBSA has agreed that the limited scope audit exemption should be repealed and in the
past, has proposed changes to ERISA. However, Congress has not acted to make



                                                                              EBSA Audit Quality
                                              6                      Report No. 09-12-002-12-121
                                            U.S. Department of Labor – Office of Inspector General


these changes and EBSA has not formally proposed eliminating the limited scope audit
provision since 1997.

In recent years, several emerging issues make repeal even more critical. According to
industry sources, in recent difficult economic times many plans have shifted assets into
more complex, hard-to-value investments, such as limited partnerships, private equity
funds, real estate, and hedge funds as a means to increase investment return. In
addition, technology has substantially changed the accountability and transparency for
pension plan assets held by financial institutions.

These investments present challenges to plan administrators and auditors in ensuring
both the existence and valuation of these assets. In 1974 when Congress passed
ERISA, stock certificates were still used and held to show asset ownership. Today,
qualified financial institutions use clearinghouses, subsidiaries, and other third-party
organizations to hold plan assets. Qualified financial institutions have only electronic
book entries to show they are holding plan assets. However, the information for these
electronic entries may come directly from clearinghouses or from brokers and other
non-qualified institutions.

We selected a judgmental sample of 20 plans with limited scope audits and contacted
the plans and the asset custodians to determine how the custodian actually held the
assets and how the custodians accounted for them. Virtually none of the custodians
held securities certificates, as they would have in 1974 when Congress passed ERISA.
All accounted for the investment securities by electronic entries in records. In one case,
“external” parties such as a broker dealer (a non-qualified institution) provided the
information for the custodian’s record entries. These “external” parties provided
year-end information to the qualified financial institution that then included the asset
information on its certification. These assets included on the certification by the qualified
financial institution escaped scrutiny under the limited scope audit exception.

These situations make verifying asset existence more critical to participants and
beneficiaries interests but, under limited scope audits, verification of existence is not
part of the plan auditor’s responsibility.

Today’s environment also makes valuation more difficult. Under limited scope audits,
qualified institutions need only certify that their asset lists are complete and accurate as
reflected in their records. However, for financial statement purposes plan administrators
must show assets at current value. This means that plan administrators must determine
the current value of assets – a task some plan administrators do not spend the time and
effort to complete. In our sample of 20 plans contacted, 10 trustees/custodians stated
that their certifications were not at current value. One major investment company with
over $160 billion in retirement assets said their certification was only “complete and
accurate,” but did not represent current value. Other examples of responses included
stating that such investments as private equity investments, pooled funds, and other
investments not publicly traded, were not shown at current value.



                                                                              EBSA Audit Quality
                                              7                      Report No. 09-12-002-12-121
                                            U.S. Department of Labor – Office of Inspector General


Therefore, the Form 5500s for the 10 plans may not have been presented in compliance
with ERISA, and could be misleading to plan participants and beneficiaries. Further,
these plans’ financial statements could provide incorrect basis for external users, such
as the PBGC and plan actuaries.

The repeal of the limited scope audit provision is more critical today than ever. The lack
of protections provided by limited scope audits have extended to more participants and
more plan assets in recent years. The percentage of plans electing limited scope audits
has grown from about 46 percent in 1987 to approximately 70 percent in 2010. The
reported value of assets excluded from audits has similarly grown from about
$520 billion (43 percent) in 1987 to $3.3 trillion (58 percent) in 2010. Due to the
continuing lack of assurances provided by limited scope audits, $3.3 trillion of plan
assets with limited scope audits lack assurances as to their existence and valuation.
With this amount of assets lacking assurances to participants of their existence and
value, EBSA needs to renew its efforts to repeal the limited scope provisions of ERISA.

EBSA Should Take Available Action Now - There are actions EBSA should take relative
to limited scope audits to improve protections for participants and beneficiaries within its
existing authority.

Holding Assets - First, EBSA has not issued sufficient guidance on what control and
accountability a financial institution needs to have over plan assets to be able to certify
under ERISA. The holding of plan assets in 2012 bears little resemblance to the holding
of assets in 1974 when ERISA was enacted, but EBSA has not issued any specific
guidance on the control and accountability a custodian or trustee must have in order to
provide a certification to a plan administrator. As a result, while qualified financial
institutions may be certifying plan assets, those assets may not actually be in the control
or accountability of an institution qualifying under ERISA.

As noted earlier, the legislative basis for allowing limited scope audits was that the
assets held by banks, similar institutions, and insurance companies regulated and
supervised by and subject to periodic examinations by a State or Federal agency were
already subject to sufficient audit. However, in 1974 these financial institutions generally
had more direct physical control and verification of existence of the actual asset. A
major change in how investment ownership and custody were handled began in the
early 1970’s, about when ERISA was being developed. The major changes were not
implemented until later, after Congress passed ERISA. Today, electronic records are all
that trustees or asset custodians maintain. In most forms of investment, actually custody
of plan investments in terms of certificates, etc., if any, lies with one of several
clearinghouses.

The move to an electronic environment significantly changed the environment of the
limited scope audit. Asset custody and ownership recording was shifted to
clearinghouses. The clearinghouses provide electronic records of ownership to their
clients. Qualified financial institutions rely on the clearinghouses for custody of an asset.
The clearinghouses are part of the Federal Reserve System and may even be qualifying


                                                                              EBSA Audit Quality
                                             8                       Report No. 09-12-002-12-121
                                             U.S. Department of Labor – Office of Inspector General


financial institutions themselves. This is the industry practice today, replacing the early
ERISA days of assets supported with paper to today’s electronic records.

However, we found that qualified financial institutions are not relying only on the
clearinghouses for electronic information but are relying on electronic information
obtained from non-qualifying institutions. In our judgmental sample of 20 limited scope
audits, we found that 5 of the qualifying institutions providing certifications obtained the
information they certified from brokerage firms and other non-qualifying institutions
specifically not allowed under ERISA to provide asset certifications. For example, in one
case, a qualifying institution certified to over $6 million of plan assets. However, the
qualifying institution stated it obtained the information it certified from the plan’s
investment broker. The qualifying institution had very little, if any, control or
accountability over the plan asset. The plan’s broker bought and sold investments and
dealt directly with the clearinghouses that had actual custody of the assets. It appears
the brokerage, a non-qualifying institution, had accountability for the assets and just
provided necessary information to the qualified institution, which certified the assets to
the plan, contrary to what Congress envisioned under the limited scope audit
exemption.

EBSA has not provided sufficient guidance to deal with the current practices regarding
investment ownership and accountability. Existing guidance provides definitions of
qualifying institutions and those authorized to certify asset listings. However, there is no
guidance on what control or accountability is necessary for a financial institution to be
considered holding the asset within the intent of the limited scope audit exemption.

As a result, certifications from qualifying financial institutions used as a basis for limiting
the scopes of plan audits may not meet the intent of ERISA in allowing limited scope
audits. If qualifying financial institutions are basing certifications on information from
non-qualifying institutions, this nullifies the safety assumed in allowing limited scope
audits, and plan participants and beneficiaries are inappropriately subject to risk of loss
of their retirement benefits.

Valuing Assets in Limited Scope Audits – EBSA has not provided guidance and
enforcement to plan administrators with regards to the use of financial institution
certifications of plan assets in limiting the scope of an audit and obtaining and
supporting the current value for plan investments. In addition, while the ERISA Advisory
Council studied the issue of limited scope audits and made recommendations, EBSA
has not formally evaluated recommendations made by the ERISA Advisory Council
regarding limited scope audits.

Plan administrators using limited scope audits are not consistently presenting plan
assets at current value in their financial statements as required by ERISA. Instead, plan
administrators are using asset values from asset certifications provided by qualified
financial institutions even though these certifications do not always represent current
value. This is occurring because plan administrators do not fully understand their
responsibilities under limited scope audits and EBSA has neither provided sufficient


                                                                               EBSA Audit Quality
                                               9                      Report No. 09-12-002-12-121
                                            U.S. Department of Labor – Office of Inspector General


guidance nor enforced these ERISA requirements. As a result, plan administrators are
not providing plan participants, beneficiaries, and external users of plan financial
statements current value information on plan assets as required by ERISA.

In a 2002 letter to the AICPA, EBSA noted, based on their own review, that plan
administrators might incorrectly assume that the certification provided for annual
reporting purposes by financial institution represents the current value of the plan’s
assets. ERISA requires plan administrators to present plan assets at current value in
their annual report and financial statements. Generally Accepted Accounting Principles
(GAAP) specifies plan management is responsible for making the fair value
measurements and disclosures included in the financial statements. As part of fulfilling
its responsibility, management needs to establish an accounting and financial reporting
process for determining the fair value measurements and disclosures, select
appropriate valuation methods, identify and adequately support any significant
assumptions used, prepare the valuation, and ensure that the presentation and
disclosure of the fair value measurements are in accordance with GAAP.

Participants and beneficiaries use this information to evaluate the financial soundness
of their plan and its performance from year to year. External parties, such as plan
actuaries and the PBGC, also use the information in determining plan-funding issues, in
monitoring plan financial health, and in taking over plans when necessary.

In full scope audits, IQPA’s ensure that plan administrators present assets at current
value. It is part of their audit testing to verify that plan assets are presented at current
value and their audit opinion provides assurances that this has been done. However,
the limited scope audit exemption presents challenges in the current environment for
plan administrators to report plan investments at current value in accordance with
ERISA requirements. The qualified financial institutions are only required to certify that
the investment information is complete and accurate. It is the plan administrator’s
responsibility to ensure the presentation of the assets at current value. Without a full
audit to verify this, plan administrators do not always take the necessary action to
ensure they present the plan's assets at fair value.

For our sample of 20 limited scope audits, we asked the plan administrators to provide
us with documentation of how they ensured they presented plan assets at current value.
Half of plan administrators could not provide such documentation or explain how they
assured themselves of current value. From these same plans, 10 trustees/custodians
(one-half) stated that they did not show all of the assets certified at current value. While
it is not the trustees’/custodians’ responsibility to present current value, plan
administrators are failing to establish an accounting and financial reporting process for
determining and presenting the fair value of plan assets in accordance with GAAP and
ERISA.

EBSA enforcement cases have also shown the failure of plan administrators to obtain
and report plan assets at fair value. As part of its enforcement project initiatives from
FY 2010 to 2011, EBSA’s Office of Enforcement conducted investigations into plan


                                                                              EBSA Audit Quality
                                             10                      Report No. 09-12-002-12-121
                                                     U.S. Department of Labor – Office of Inspector General


valuations of hard to value investments such as real estate, collectibles, hedge funds,
limited partnerships, and distressed investments. During this period, EBSA closed
approximately 100 investigative cases involving hard to value investments and ERISA
violations. About half of these cases had limited scope audits. The types of ERISA
violations identified in these cases with limited scope audits included failures to obtain
appraisals or valuations where appropriate.

The 2010 ERISA Advisory Council studied limited scope audits. The Council developed
concerns similar to ours and submitted the following recommendations to the Secretary
of Labor for consideration on limited scope audits:

    	 Clarify the kinds of entities that are qualified to issue certifications under existing
       regulations and guidance and reiterate that only qualified entities may issue
       certifications.

    	 Amend the limited scope audit regulations to require that the certification of
       investment information include a disclaimer that investment values may not have
       been subject to independent verification of fair value by the certifier.

    	 Require plan administrators to include any certification issued in connection with
       a limited scope audit in the plan's Form 55002 filing or other annual report.

   	 Issue informal education materials targeted to plan sponsors and plan auditors
      that would assist them in understanding their respective obligations with respect
      to limited scope audits.
      .
EBSA, however, has not formally evaluated the feasibility of implementing the ERISA
council recommendations.

The existence and valuation of plan assets is critical to plan operations and has
implications for defined contribution and defined benefit plans. One concern for a
defined benefit plan is that overstating asset value could place a plan at risk of
unknowingly being underfunded. Alternatively, if a value is too low, it would give rise to
excessive deductible plan contributions. For a defined contribution plan, a proper
valuation is essential to determine a participant’s benefits when they are due to be paid
and accurate annual and income tax reporting. The fair market value of plan assets is
also important for Form 5500 reporting and forfeiture allocation. Since plan participants
are paid on a regular basis based on the current value of their account’s share of the
plan assets, the plan must know how much is owed to each participant at the time of
distribution.



2
 The 5500 Series forms are used by employee benefit plans to satisfy annual reporting requirements under ERISA
and the Internal Revenue Code.

 

                                                                                         EBSA Audit Quality
                                                      11                        Report No. 09-12-002-12-121
                                             U.S. Department of Labor – Office of Inspector General


EBSA Continues to Lack the Legal Authority to Regulate IQPAs Performing ERISA
Plan Audits

EBSA continues to lack the legal authority to oversee IQPAs. Under ERISA, as enacted
by Congress in 1974, when EBSA identifies substandard audit work, EBSA can only
reject the annual filing by the plan administrator and refer the IQPA to the State
accountancy board and/or professional bodies for disciplinary actions. EBSA cannot
prevent an auditor from doing employee plan audits or sanction an IQPA for repeatedly
performing substandard audits.

Since 1984, the OIG has recommended EBSA propose changes to Congress to allow
EBSA to oversee IQPAs directly and prevent poor performing IQPAs from doing audits
on employee benefit plans by setting standards or authorizing sanctions. EBSA has
agreed with this recommendation and has proposed changes to ERISA, but Congress
has not acted to make the changes and EBSA has not proposed obtaining additional
authority over plan auditors since 1997. As a result, it is difficult for EBSA to be effective
in ensuring audit quality.

EBSA has spent a significant share of its resources on IQPAs that produced poor
quality audits. EBSA’s oversight in the past has shown that IQPAs with relatively less
experience in auditing employee benefit plans generally have less training and
competence in employee benefit plan audits. For FYs 2010 to 2011, EBSA focused
more than 70 percent of its reviews on IQPAs that audited less than 25 employee
benefit plans annually even though these IQPAs audit less than 25 percent of the $5.7
trillion in plan assets. Since EBSA cannot limit or prevent an IQPA from continuing to do
employee benefit plan audits, EBSA has no choice but to devote resources where the
risk of deficient audits is the highest.

Other entities with similar oversight responsibilities do not lack this authority. The Joint
Board for the Enrollment of Actuaries (JBEA), the Securities and Exchange Commission
(SEC), the Public Company Accounting Oversight Board, and the Internal Revenue
Service each have oversight responsibilities similar to EBSA, but possess much greater
enforcement powers to meet these responsibilities. All have sufficient authority to
correct deficient work, require remedial action when necessary, or remove deficient
professionals from doing work in their respective area of responsibility. By contrast,
EBSA lacks comparable enforcement and oversight powers over its audit practitioners.
For example, if the SEC finds substandard audit work, it has the authority to bar,
censure, or suspend auditors from doing SEC related audits. The SEC also has the
power to impose civil penalties in cease-and-desist proceedings directly against the
auditor. These penalties range from $5,000 to $500,000. Similarly, the JBEA can
suspend or remove from enrollment actuaries who do not comply with JBEA
regulations.

With the effect on its resources and the risk of deficient audits, EBSA needs to renew its
efforts to obtain additional authority over plan auditors. However, even without



                                                                               EBSA Audit Quality
                                              12                      Report No. 09-12-002-12-121
                                           U.S. Department of Labor – Office of Inspector General


Congress granting additional authority, there are enforcement tools EBSA could have
used, some of which other Department of Labor agencies have used. For example:

   	 EBSA could have published the names of IQPAs that repeatedly perform
      substandard work to deter them from continuing to perform poorly. OSHA uses
      this practice in its Severe Violator Enforcement Program (SVEP). OSHA
      publishes the names of companies it considers severe violators and has
      established criteria for how companies get on OSHA’s SVEP list, how long the
      companies stay on the list, and how the companies get off the list.

   	 EBSA could have reminded plan administrators in the rejection of their annual
      filings that they have fiduciary duties to act solely in the interests of plan
      participants and beneficiaries and that if a poor performing IQPA continued to be
      used and losses occurred, there was a potential for fiduciary breach of
      consequences. EBSA issues such letters in other areas of enforcement, advising
      plan administrators of potential fiduciary breaches.

Considering EBSA’s lack of authority and the resources it spends on deficient IQPAs,
EBSA needs to leverage whatever enforcement authority it has. This includes looking
into other enforcement methods used within DOL and by outside agencies.

EBSA Should Improve Procedures in Audit Quality Reviews to Ensure that IQPA
Audits meet Professional Standards

EBSA needs to improve its procedures for reviewing IQPA audits to help ensure IQPA
audits meet professional standards. Specifically, EBSA needs to: (1) expand review
procedures to include areas of professional standards not currently examined, and
(2) complete all review procedures or document why reviewers did not perform all
procedures. EBSA’s review checklist did not include certain points of professional
standards and EBSA did not believe it was necessary to document the reason the
reviewer did not perform every procedure. However, as a result, EBSA is not detecting
all deficiencies in IQPA reviews.

In 1990, EBSA’s Office of Chief Accountant (OCA) initiated a program to identify and
correct substandard ERISA audits in an effort to improve quality through oversight,
education, and outreach. In performing quality reviews of IQPA audit documentation,
EBSA used the AICPA audit guide for audits of employee benefit plans. This guide
constitutes generally accepted auditing standards and IQPAs performing plan audits
must follow the guide or be prepared to explain any deviations from it. For its purposes,
EBSA developed a detailed checklist its reviewers could use as they went through IQPA
audit work.

However, EBSA could improve this guide in two areas that could affect the reliability of
IQPA audit work to ensure: (1) all plan assets were held and certified by the plans’
financial institutions for limited scope audits, and (2) IQPA asset valuation testing meets
generally accepted auditing standards.


                                                                             EBSA Audit Quality
                                            13                      Report No. 09-12-002-12-121
                                             U.S. Department of Labor – Office of Inspector General




Specifically, EBSA’s could enhance its reviews of limited scope audits to include
procedures to identify whether all plan assets were held and certified by the plan’s
financial institution, or if some plan assets were outside of the certification. Currently,
EBSA procedures only verify whether the plan’s financial institution is a qualified
institution, but not whether the institution holds and certifies to all plan assets. Generally
accepted auditing standards require IQPAs to test the existence and valuation of assets
not included in certifications under limited scope audits. As a result, EBSA’s review
procedures may not detect all instances where limited scope audits cover assets not
included in certifications from qualified financial institutions.

For example, in one case we found a plan’s investment in limited partnerships,
constituting more than five percent of the total assets, was not certified by the plan’s
qualified financial institution, and the IQPA did not perform sufficient testing of the
partnerships. EBSA rejected the plan’s Form 5500 filing; however, the work that was
ultimately accepted could have included more substantive testing.

We also found that EBSA procedures did not include steps to ensure that IQPAs did not
rely solely on client asset statements for valuation. Auditing Interpretations Section 332
(Auditing Derivative Instruments, Hedging Activities, and Investments in Securities),
states that simply receiving a confirmation from a third party, either in aggregate or on a
security-by-security basis, does not in and of itself constitute adequate audit evidence
with respect to the asset valuation or existence.

In one of our sample cases, the IQPA performed a full scope audit engagement on a
multi-employer defined benefit plan and rendered an unqualified opinion. The plan had
invested about $2 million in a real estate fund that represented about 9.4 percent of the
plan’s total investments. When the IQPA performed testing on this real estate fund, the
IQPA relied on an unaudited quarterly statement from the real estate company. In the
IQPA audit documentation, the IQPA referred to obtaining this quarterly statement
directly from the plan’s investment advisor. In fact, this quarterly real estate statement
specifically indicated that the results were unaudited. EBSA noted no deficiency in the
adequacy of procedures performed by the plan’s IQPA.

In addition, for two of the 28 (seven percent) full-scope cases sampled, EBSA’s case file
did not adequately document the procedures EBSA performed. For example, an EBSA
review of a plan with $86 million in total assets did not specifically document which
procedures in the investment section the reviewer performed. The plan invested $59
million (69 percent of total plan assets) in a group annuity contract offered by an
insurance company. EBSA however, did not reference the insurance contract
procedures contained in the investment section of its guide. As a result, EBSA accepted
audits in which deficiencies could exist that could, in turn, adversely affect participant
and beneficiaries’ retirement benefits.




                                                                               EBSA Audit Quality
                                              14                      Report No. 09-12-002-12-121
                                          U.S. Department of Labor – Office of Inspector General


EBSA Should Complete a Reassessment of Audit Quality and Establish
Measureable Programs to Determine if Audit Quality Has Improved

EBSA has not completed an assessment of overall employee benefit plan audit quality
since 2004. EBSA management did not release the results of the last audit quality
assessment and OCA did not feel additional assessments were cost effective if the
results were not released or otherwise useable in public. Since EBSA has not
performed such a review since 2004, it cannot demonstrate if its oversight program has
been effective in improving audit quality from a statistical standpoint.

Prior to 2004, EBSA conducted recurring statistically valid reviews of employee benefit
plan audits as a means of measuring whether overall audit quality improved over
several years. These reviews, in part, were the result of a 1989 OIG report that
disclosed that 23 percent of IQPA employee benefit plan audits did not meet
professional standards and 65 percent of IQPA audit reports did not meet ERISA
requirements.

Subsequent to the issuance of the OIG's report, EBSA and the AICPA took numerous
steps to improve the quality of employee benefit plan audits. Those actions included:

   	 Creating the Office of the Chief Accountant (OCA). One of OCA's main 

      goals was to improve the quality of employee benefit plan audits; 


   	 Targeting and reviewing IQPA audits and reports by OCA, which do not 

      meet professional auditing standards; 


   	 Referring practitioners to the AICPA's Professional Ethics Division and/or
      the respective State Board of Accountancy for potential disciplinary action
      due to deficient audit work; and

   	 Developing a series of "Outreach Programs" aimed at heightening 

      awareness and providing guidance to practitioners and auditors. 


Additionally, the AICPA made a concerted effort to improve the guidance and training
available to auditors of employee benefit plans.

Also in response to the OIG's report, EBSA committed to reassess the level and quality
of audit work IQPAs were performing with respect to audits of employee benefit plans
covered under ERISA. The first of these reviews was performed in 1997 using plan
audits from plan year 1992 (most recent available at the time). That review showed that
19 percent of the audits conducted by IQPAs pertaining to the 1992-filing year failed to
comply professional standards and 33 percent of IQPA reports failed to comply with
ERISA’s requirements. EBSA stated it could not conclude from a statistical standpoint
that the quality of employee benefit plan audit work had improved since the OIG's
assessment in 1989.



                                                                            EBSA Audit Quality
                                           15                      Report No. 09-12-002-12-121
                                           U.S. Department of Labor – Office of Inspector General


Despite the lack of improvement in audit quality, this review provided EBSA
management with important information on the effectiveness of EBSA’s oversight of
IQPAs, where audit quality problems were occurring, and what types of audit issues
were of concern. The review also: (1) developed information to be used in implementing
the Government Performance and Results Act of 1993 (GPRA), (2) established
baselines for measuring future success in achieving the overall program outcome of
improving the quality of employee benefit plan audits, and (3) assisted EBSA in trying to
obtain the best use of its limited resources in this area. Overall, the review produced a
series of recommendations that EBSA used to improve its program over the next few
years.

In 2004, EBSA performed a similar study with the same objectives. While EBSA
management at the time did not release the information from the study, EBSA did use
the information internally to evaluate how effective its oversight was and to adjust
targeting methods and make other program adjustments.

However, EBSA has not reassessed audit quality since 2004. EBSA stated that since
the results of the 2004 study were not released, its usefulness was impaired and it was
not considered cost effective to do another study for in-house use only. As a result,
EBSA cannot demonstrate how effective its oversight has been in improving audit
quality. The 1997 review EBSA performed showed that audit quality had not improved,
which was a critical conclusion and showed EBSA it needed to adjust its program,
which it did. Even though the 2004 study was not released, it was of further use to
EBSA in modifying its targeting and oversight. Without another study, EBSA cannot
demonstrate whether it is now being more effective.

Conclusion

While EBSA has taken significant actions to increase oversight and improve audit
quality, protections and assurances for plan participants have decreased. This is
primarily due to the increase in limited scope audits and a continuing lack of authority by
EBSA over plan auditors. However, even with these limitations, EBSA could make
additional changes to improve audit quality and the protections these audits provide
participants and beneficiaries.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employee Benefits Security:

1. Renew efforts to seek repeal of limited scope audit exemption.

2. Improve current protections under current authority by:

       a. 	 Clarifying the requirements needed to hold and certify plan assets for limited
            scope audits.



                                                                             EBSA Audit Quality
                                            16                      Report No. 09-12-002-12-121
                                            U.S. Department of Labor – Office of Inspector General


      b. Providing guidance to plan administrators to identify and adequately support
         current value of plan assets in limited scope audits.

      c. 	 Evaluating the recommendations from the ERISA Advisory Council on limited
           scope audits.

3. Renew efforts to obtain authority over plan auditors and make better use available
   enforcement tools.

4. Improve the quality of EBSA audit documentation reviews by adding procedures to
   ensure:

      a. 	 For limited scope audits, all plan assets are either certified by a qualifying
           financial institution or tested by the IQPA.

      b. IQPAs do not rely on client statements for existence and valuation for full
         scope audits.

5. Perform a reassessment of audit quality to determine if audit quality has improved.

We appreciate the cooperation and courtesies that EBSA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
  for Audit




                                                                              EBSA Audit Quality
                                             17                      Report No. 09-12-002-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                               EBSA Audit Quality
              18                      Report No. 09-12-002-12-121
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                                 EBSA Audit Quality
                19                      Report No. 09-12-002-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                               EBSA Audit Quality
              20                      Report No. 09-12-002-12-121
                                            U.S. Department of Labor – Office of Inspector General


                                                                                   Appendix A
Background

The Employee Retirement Income Security Act of 1974 (ERISA) is the primary federal
law governing the investment of assets in private sector employee benefit plans.
The ERISA requires that most large employee benefit plans obtain an annual audit of
their financial statements. ERISA requires these plan administrators to engage, on
behalf of plan participants, an independent qualified public accountant (IQPA) to audit
the plan's financial statements in accordance with Generally Accepted Auditing
Standards (GAAS). The IQPA opines on whether the plan’s financial statements are
presented in accordance with GAAP. ERISA requires that these financial statements be
included in the annual report these plan administrators file with the Secretary of Labor.

The Employee Benefits Security Administration (EBSA) has the responsibility to ensure
that these audits meet ERISA requirements to help protect participant and beneficiary
benefits. For plan year 2010, the most recent complete year available, plan
administrators filed about 83,624 audited financial statements on private employee
benefit plans holding assets over $5.7 trillion and covering approximately 93 million
participants.

For plans whose assets are held by certain financial institutions, ERISA provides an
option for a limited scope audit under which the auditor need not audit investment
information certified by the financial institutions. Generally, this exemption applies to
assets held by banks and insurance companies. Since the auditor does not test the
accuracy or completeness of the investment information certified by the financial
institution, the auditor disclaims an opinion on the plan’s financial statements, providing
no assurances to participants or beneficiaries as to the reliability of the plan’s financial
statements.

As far back as 1984, reviews by the U. S. Department of Labor’s Office of Inspector
General (OIG), the U.S. Government Accountability Office (GAO), and EBSA have
shown that employee benefit plan audit requirements need changing. OIG and GAO
recommended EBSA seek repeal of limited scope audits, obtain authority over plan
auditors, and improve oversight of employee benefit plan audits. To address these
issues, in 1989 EBSA established an Office of Chief Accountant (OCA). One of OCA’s
main responsibilities was to monitor and improve the quality of employee benefit plan
audits. As part of an overall enforcement and compliance assistance effort, OCA
implemented a program in 1990 to identify and correct substandard audits.

The percentage of plans using limited scope audits has grown from about 46 percent in
1987 to approximately 70 percent in 2010. The reported value of assets excluded from
audits has similarly grown from about $520 billion (43 percent) in 1987 to $3.3 trillion (58
percent) in 2010. Due to the continuing lack of assurances provided by limited scope
audits, $3.3 trillion of plan assets with limited scope audits lack assurances as to their
existence and valuation.

                                                                              EBSA Audit Quality
                                             21                      Report No. 09-12-002-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                               EBSA Audit Quality
              22                      Report No. 09-12-002-12-121
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix B
Objective, Scope, Methodology, and Criteria

 Objective

 The objective of this audit was to determine if EBSA’s oversight of ERISA audits
 improved audit quality and increased participant protections.

 Scope

 Our scope included all EBSA policies and procedures pertaining to audit quality review
 activities for January 1, 2008, through August 31, 2011. Additionally, for FY 2010 and
 2011, we received enforcement case results on closed investigations for plans with
 hard to value investments and one or more ERISA violations. We reviewed prior
 EBSA and GAO studies on audit quality. We conducted fieldwork at EBSA
 headquarters in Washington, DC.

 We conducted this performance audit in accordance with generally accepted
 government auditing standards. Those standards require that we plan and perform the
 audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
 findings and conclusions based on our audit objective. We believe that the evidence
 obtained provides a reasonable basis for our findings and conclusions based on our
 audit objective.
 Methodology

 We reviewed professional standards, applicable regulations, and EBSA policies and
 procedures. We interviewed officials from EBSA, the American Institute of Certified
 Public Accountants (AICPA), the Pension Benefit Guarantee Corporation (PBGC), and
 met with employee benefit plan experts as well as a member of the ERISA Advisory
 Council to gain an understanding of the employee benefit plan audit process, EBSA
 oversight, and plan audit quality standards.

 In planning and performing our audit, we considered EBSA’s internal controls that
 were relevant to our audit objective. We confirmed our understanding of these controls
 through interviews, obtaining, and reviewing EBSA reviews, policies, procedures, and
 enforcement actions. Our consideration of internal controls relevant to our audit
 objective would not necessarily disclose all matters that might be significant
 deficiencies. Because of inherent limitations in internal controls, misstatements or
 noncompliance may nevertheless occur and not be detected.

 To determine whether EBSA oversight over ERISA audits improved audit quality and
 increased participant protections, we reviewed a sample of EBSA examinations of
 IQPA audits from FYs 2008 through 2011. We selected and reviewed a stratified
 random sample of 62 out of 961 EBSA audit quality reviews of IQPA audits completed
 during FY 2010 and FY 2011. For these sampled case files, we reviewed IQPA audit
 documentation and EBSA reviews of IQPA audit documentation. These 62 sampled

                                                                           EBSA Audit Quality
                                          23                      Report No. 09-12-002-12-121
                                         U.S. Department of Labor – Office of Inspector General


plans had end-of-year total asset values of $2.03 billion. Of the 62 sampled case files,
34 had limited scope audits and 28 plans had full scope audits. We contacted plan
administrators for the 34 limited scope plan audits in our sample to obtain complete
certification statements of plan assets and any documentation to support fair value
assumptions of plan assets where applicable. We also contacted these plans trustees
or asset custodians and obtained information about how the trustees/custodians held,
accounted for, and valued plan assets in their certification. Since EBSA’s reviews of
IQPA audits were non-statistical, we did not extrapolate our sampled testing to the
employee benefit plan filing universe.

To achieve the audit’s objective, we relied on computer-processed data from the
ERISA Filing Acceptance System II (EFAST2) Form 5500 Series plan filings, and
OCA’s work paper review database. We assessed the reliability of this data by (1)
performing analytical tests of data elements, (2) reviewing prior OIG and GAO reports
on the EFAST2 system, and (3) tracing selected data elements to plan documents.
Based on these tests and assessments, we concluded the data was sufficiently
reliable for us to use in meeting the audit’s objective.

Criteria

We used the following criteria to accomplish our audit:

     Employee Retirement Income Security Act of 1974

     29 CFR 2520.103-5 Transmittal and certification of information to plan 

       administrator for annual reporting purposes 


     29 CFR 2520.103-8 - Limitation on scope of accountant's examination

     Generally Accepted Accounting Principles, as applicable.




                                                                           EBSA Audit Quality
                                          24                      Report No. 09-12-002-12-121
                                       U.S. Department of Labor – Office of Inspector General


                                                                              Appendix C
Acronyms and Abbreviations

 AICPA         American Institute of Certified Public Accountants

 FY            Fiscal Year

 DOL           Department of Labor

 EBSA          Employee Benefits Security Administration

 ERISA         Employee Retirement Income Security Act of 1974

 GAO          Government Accountability Office

 GAAP         Generally Accepted Accounting Principles

 GAAS         Generally Accepted Accounting Standards

 GPRA         Government and Performance Results Act

 IQPA         Independent Qualified Public Accountant

 OCA           EBSA’s Office of Chief Accountant

 OIG           Office of Inspector General

 PBGC          Pension Benefit Guarantee Corporation




                                                                         EBSA Audit Quality
                                        25                      Report No. 09-12-002-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                               EBSA Audit Quality
              26                      Report No. 09-12-002-12-121
                                U.S. Department of Labor – Office of Inspector General


                                                                       Appendix D
EBSA Response to Draft Report




                                                                  EBSA Audit Quality
                                 27                      Report No. 09-12-002-12-121
U.S. Department of Labor – Office of Inspector General




                                  EBSA Audit Quality
 28                      Report No. 09-12-002-12-121
U.S. Department of Labor – Office of Inspector General




                                  EBSA Audit Quality
 29                      Report No. 09-12-002-12-121
U.S. Department of Labor – Office of Inspector General




                                  EBSA Audit Quality
 30                      Report No. 09-12-002-12-121
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix E
Acknowledgements

Key contributors to this report were Ralph McClane (Audit Director), Jason Jelen (Audit
Manager), Chih “Steve” Chiang (Auditor-in-Charge), Lewis Leung, Richard Donna Jr.,
Tim Kerschen, Angela Stewart, and Steve Witherspoon (Reviewer).




                                                                            EBSA Audit Quality
                                           31                      Report No. 09-12-002-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                               EBSA Audit Quality
              32                      Report No. 09-12-002-12-121
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
